UNITED STATES SUPREME COURT
Linda Howland (petitioner)
V
Mike Kelly (Darweesh, Lewis, Kelly and VonDohlen
and
Hollice Creek (Howard Hanna Real Estate Services)

Certificate of Service
I, Linda Howland herby certify under penalty of perjury that on
10/23/2020,1 served a copy of:
Petition of Writ of Certiorari to the United States Supreme Court
By US Mail signature requested as proof of delivery
On the following parties:
1. Mike Kelly. 1081 Long Pond Road #200. Rochester. NY
14626
2. Hollice Creek. Howard Hanna Real Estate Services.
2349Monroe Avenue. Brighton NY 14618

"TfSCSfOTI
NOV - 3 2020
euiRK
SUPREME COURT, U.S.

A

